No. ________
IN THE

Supreme Court of the United States
________________
DISH NETWORK, L.L.C.,
Petitioner,
v.
THOMAS H. KRAKAUER, ON BEHALF OF A CLASS OF PERSONS,
Respondents.
CERTIFICATE OF SERVICE OF APPLICATION FOR AN EXTENSION OF
TIME WITHIN WHICH TO FILE A PETITION FOR A WRIT OF
CERTIORARI TO THE UNITED STATES COURT OF APPEALS FOR THE
FOURTH CIRCUIT
I, E. Joshua Rosenkranz, hereby certify that on this 16th day of August 2019,
one copy of the Application for an Extension of Time Within Which to File a Petition
for Writ of Certiorari to the United States Court of Appeals for the Fourth Circuit
was sent via U.S. mail, and via email, to:
John William Barrett
Bailey & Glasser, LLP
209 Capitol Street
Charleston, WV 25301
jbarrett@baileyglasser.com
Counsel for Thomas H. Krakauer
All parties required to be served have been served.
Respectfully submitted,
s/ E. Joshua Rosenkranz
E. Joshua Rosenkranz
Counsel of Record
ORRICK, HERRINGTON & SUTCLIFFE LLP
51 West 52nd St.
New York, NY 10019
(212) 506-5000
jrosenkranz@orrick.com

